No.

\<\KVA

FILED
SEP 2 0 2019
nFFIHF OF THE CLERK
SuHHfaME COURT. U.S.

3fn fP)e

Supreme Court of tlir (Unitet) States
Christopher Lawrence, Chaslie Lawrence Lewis, Patrice Victoria Ricks,
Janie Ruth Wilson Lawrence, Charlie Junior Lawrence Sr., Charlie
Lawrence Jr, Cheryl Ann Lawrence Hughes, Carolyn Lawrence, Gregory
Michelle Lawrence, Fredrick Lawrence, Dr. Gwendolyn Denis Lawrence
Harrison, Samuel McAvin Lawrence, Reginald Lawrence, Cynthia
Lawrence Tolbert, and Charlette Lawrence,
et, al, Petitioners
vs.
UNIVERSITY HOSPITAL, et, al, Respondents,
On Petition for Writ of Certiorari
To The United States Court of Appeals
For The Eleventh Circuit
Application for Enlargement or Extension Time to File Writ of Certiorari

J?,
[Christopher LawV€nce
57 Golfview Road,
Carpentersville, Illinois 60110
(470) 421 - 6570

1

CERTIFICATE OF INTERESTED PERSONS AND CORPORATE
DISCLOSURE AND AFFILATIONS STATEMENT
Petitioners Christopher Lawrence, (Brother of Decedent), Chaslie Lawrence Lewis,
(Daughter of Decedent), Patrice Victoria Ricks, (Daughter of Decedent), (Janie Ruth
Wilson Lawrence, (Mother of Decedent), Charlie Junior Lawrence Sr., (Father of
Decedent), Charlie Lawrence Jr. (Brother of Decedent), Cheryl Ann Lawrence
Hughes, (Sister of Decedent), Carolyn Lawrence, (Sister of Decedent), Gregory
Michelle Lawrence, (Brother of Decedent), Fredrick Lawrence, (Brother of
Decedent), Dr. Gwendolyn Denis Lawrence Harrison, (Sister of Decedent), Samuel
McAvin Lawrence, (Brother of Decedent), Reginald Lawrence, (Brother of
Decedent), Cynthia Lawrence Tolbert, (Sister of Decedent), and Charlette
Lawrence, (Sister of Decedent are not affiliated with any held Corporation other
that an implied family relationship where all members are collectively function on
the singular purpose .
Petitioners are not affiliated with any publicly held entity; nor do they have, any
parent Corporation’s affiliations. Petitioners do not own 10% or more of stock as
parties partially or as fully owned entities in or by a publicly entity.

2

APPLICATION TO EXTEND OR ENLARGEMENT TIME
Comes Now, Petitioners, Christopher Lawrence as the assigned and others as
named of Pro ses litigants to the forgoing Writ and Pursuant to 28 U.S.C. § 2101,
humbly request the Supreme Court Justice to grant leave for an “Extension of time”
to file the Appeal under a Writ Certiorari. Petitioners seek an extension of time due
to Circuit Court forwarded the Opinion to an old mailing address that was not
received until September 3, 2019. Petitioners show they need additional time to
understand the requirements to properly file their petition and for Bindery
Services.
Pro ses further advances 11th Circuit refused to address the compelling questions
presented and have left open impressions that once that Court reviews the
fundamental arguments involving jurisdiction an antiquated presumption was
applied in erred of all Plaintiffs being a part of the claims by and through enjoined
parties. See attached Exhibit 1 mandate
The 11th Circuit Court often time does not advise or make language clear and plain
relative to non-attorneys as Pro ses when they should file their appeal to the
Supreme Court and that could cause a failure to file untimely.
Petitioners contends further withholding information or the Circuit Court’s
ambiguity language in their correspondent as to when the Petitioners could advance
their case is deliberate intentions to impede Petitioners rights of redress and
therefore cause a deprivation of due process as overtone of denied justice and access
to this court.

Petitioners believes that it would duly disadvantage them to expect meeting the
filing time period when the conditions are such that caused the delay in receiving
the Opinion for the Circuit through three different address changes. The system
factually shows that the initial address of correspondence was 2740 Highpoint Road
Snellville, Georgia 30078. Petitioner acting as the party responsible moved to 2974
Jenkins Drive, Snellville, Georgia 30078, Petitioner Chris Lawrence moved to 4486
Cherokee Drive, Lot 44, Douglasville, Georgia 30134, and finally, Petitioner CL
relocated back to Chicago at 57 Golfview Road, Carpentersville, Illinois 60110. It
was within the forgoing movements over the past year that delayed receipt and
notice from the Circuit Court that caused the delay and therefore Petitioners
respectfully asks time to address the 11th Circuit Court’s opinion.

\Conclusion

3

Wherefore, Petitioners have presented the forgoing reasons for requesting
additional time for filing their Writ in good faith. Petitioner asks the Administrative
Court to consider the application for extension before the filing date deadline and
hope the all conditions beyond their controls be considered as well.
Petitioner respectfully requests that Justice Thomas to consider the reasons that
would impact the case going forward under the basis of minimal jurisdiction and
joined parties to the cases were never objected to real parties in interest. Petitioners
ask the High Court for leave in the opportunity to present the errors made in unto
correction and justice as the objectivity of the Court when a death has occurred and
the Respondent attempts to use niceties of law over negligence in a duty to perform

jpectfully Requested and Submitted,

57 Golfview Road,
Carpentersville, Illinois 60110
(470) 421 - 6570

Submitted this day of September 18, 2019

4

